HHS/OIG, Audit - "Review of Vendor Rebates Paid to Hospitals - Staten
Island University Hospital, Staten Island, New York," (A-05-07-00055)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Vendor Rebates Paid
to Hospitals - Staten Island University Hospital, Staten Island, New York," (A-05-07-00055)
April 20, 2007
Complete Text of Report is available in PDF format (470 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether Staten Island Hospital (the provider) reduced costs reported on its fiscal years 2003 and 2004 Medicare cost reports by the $48,014 it received for two vendor rebates. The provider properly reduced its fiscal year 2004 Medicare cost report by $33,410 for one rebate. However, the provider did not reduce costs reported on its fiscal year 2003 cost report by the remaining $14,604 rebate, contrary to Federal regulations and Centers for Medicare and Medicaid Services guidance.
We recommended that the provider (1) revise and resubmit its 2003 Medicare cost report, if not already settled, to properly reflect the $14,604 rebate as a credit reducing its health care costs; and (2) consider performing a self-assessment of its internal controls to ensure that future vendor rebates are properly credited on its Medicare cost reports. The provider agreed with our recommendations.